1099 NEW YORK AVENUE NW SUITE 900 WASHINGTON, DC 20001-4412

J EN N ER &B LOCK

Adam G. Unikowsky
Tel +1 202 639 6041
Fax +1 202 661 4925
aunikowsky@jenner.com

October 16, 2019

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, DC 20543
Re:

Metcalf V. Fitzgerald, No. 19-490

Dear Mr. Harris:
Please see the attached amended Proof of Service in Metcalf v. Fitzgerald, No. 19-490. It
identifies the same two law firms as were identified in the original Proof of Service, but different
attorneys within those law firms.

Adam G. Unikowsky
Counsel for Petitioner

CHICAGO

LONDON

LOS ANGELES

NEW YORK

WASHINGTON, DC

WWW.JENNER.COM

LLP

No.
In The

Supreme (Eomi of il]B
Jonathan S. Metcalf,
Petitioner,
V.

Michael Fitzgerald, et al.,
Respondents.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 15th day of October 2019, caused three copies of the Petition
for a Writ of Certiorari to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Cristin E, Sheehan
Morrison Mahoney LLP
One Constitution Plaza
10th Floor
Hartford, CT 06103
(860) 616-4441
tholzman@morrisonmahoney.com

Patricia Boyce lassogna
Musco & lassogna
555 Long Wharf Drive
10th Floor
New Haven, CT 06511
(203) 782-4122
joshua.yahwak@m-ilaw.com

Counsel for Myles Alderman, Jr. and
Alderman & Alderman, LLC

Counsel for Ion Bank and Michael
Fitzgerald

Adam G. Unikowsky

